U . S Department of                       The Inspector General    Office of Inspector Geneml
Transportation                                                     Washington, D.C. 20590


Office of the Secretary
Of Transportation




January 17, 2007


The Honorable Jerrold Nadler
Member, House of Representatives
Washington, DC 205 1 5

Dear Representative Nadler:

This letter responds to your April 6, 2006 correspondence that questioned whether
the Metropolitan Transportation Authority (Authority) provided adequate relocation
planning, advisory services, and coordination of assistance to the individuals and
businesses being displaced by the Fulton Street Transit Center Project (Transit
Center). The Transit Center receives funding from the U.S. Department of
Transportation Federal Transit Administration (FTA) and oversight from FTA's
Lower Manhattan Recovery Office (Recovery Office) in New York City.

You requested that we investigate claims that the Authority and two of its
consultants, Cornerstone and Universal Field Services, were negligent in their duty
to provide the services required under the Uniform Relocation Assistance and Real
Property Acquisition Policies Act of 1970 (Uniform Act). When my staff met with
you and Borough President Scott M. Stringer, on May 12, 2006, you noted that
tenants were directed to move out by May 31, 2006, even though they had not
received adequate assistance.

In response to your concerns about the tenants' complaints, FTA had its relocation
specialist, Peck Associates, conduct two reviews of the problems with the services
and suggest improvements. Peck Associates' first review found that the Authority
met statutory and regulatory requirements of the Uniform Act in the areas of
relocation planning and general relocation advisory assistance, but that the
Authority, Cornerstone, and Universal Field Services did not adequately
communicate with each other or with the tenants. Based on Peck Associates'
findings, the Recovery Office recommended that the Authority and its consultants
provide the tenants with replacement property listings that were more current and
more responsive to their needs, and improve communications between all parties.




Control No. 2006-037
We asked FTA to ensure that the Authority was taking sufficient and prompt action
on Peck Associates' recommendations.             S-ubsequently, the FTA Deputy
Administrator called the Authority to emphasize the need to address Peck
Associates' recommendations. Shortly thereafter, according to your staff, the
Authority Chairman notified you that it had implemented all of Peck Associates'
recommendations and that the Authority would give the tenants an additional 3
months-until   August 31, 200&-to      vacate the buildings required for the Transit
Center. Further, Peck Associates conducted a second review to confirm that the
Authority had taken acceptable corrective actions, and concluded that the program
was more responsive to the tenants' needs, provided more up-to-date listings of
replacement rental properties, and better communicated with the tenants.

Additionally, Borough President Stringer had suggested that if the tenants'
complaints about relocation assistance were validated, then the Authority should
release the tenants from their lease payments. We reviewed the tenants' agreements
with the Authority and noted that tenants were not charged rent after March 29,2006
(the date that the Authority took ownership of the buildings), provided that tenants
moved out of their space by an agreed-upon date. We also note that as of
September 8,2006, all 149 tenants had moved without the Authority having to evict
anyone.

Finally, to address your concerns whether the contractors' billings were appropriate
in relation to the value received, we will ask FTA to instruct the Authority to audit
the costs billed by both Cornerstone and Universal Field Services.

If I can answer any questions or be of further assistance, please feel free to contact
me at (202) 366-1959, or Deputy Inspector General, Todd Zinser, at (202) 366-6767.

Sincerely,




Calvin L. Scovel 111
Inspector General

                                          #
cc:   The Honorable Scott Stringer, Manhattan Borough President
      Federal Transit Administrator
      Director, Lower Manhattan Recovery Office




Control No. 2006-037
